\

No.
In RE. Thomas Alexander Wilkins
Petitioner

On Petition for Writ of Certiorari to the United States District Court for the
Eastern District of California l:10-cv-00674, l:13-cv-01943(Related),
the United States International Trade Commission
United States Patent and Trademark Office]
and
!
United States Court of Appeals for the Federal Circuit
Case 2020-141 ECF. No. 6,
August 14, 2020.
CERTIFICATE OF SERVICE
I, Thomas Alexander Wilkins a fee inhabitant! acting with the
United States of America and acting Pro Se on jthis 12th day of
September 2020, I caused 4 0 near 9 14 X, 6 x 1/8 copies and 1 8 14 X
11 copy signed of the brief of writ of certiorari to be served by the United States
postal service first class mail to the clerk of the court for the United States Supreme Court
including a docket fee of USPS money order of the amount showing $300.00.

I

'S6 As£

D

fi
Thomas Wilkins
121 N. Gateway #44 Ridgecrest
California [93555] {
the United States of America
USA 001 661 917 3077

i

i

/
V

IN THE SUPREME COURT OF THE UNITED STATES
No
In RE. Thomas Alexander Wilkins
Petitioner
On Petition for Writ of Certiorari to the United States District Court for the
Eastern District of California l:10-cv-00674, l:13-cv-01943(Related),
the United States International Trade Commission
United States Patent and Trademark Office
and
United States Court of Appeals for the Federal Circuit
Case 2020-141 ECF. No. 6,
August 14, 2020.
CERTIFICATE OF SERVICE
I, Thomas Alexander Wilkins a fee inhabitant acting with the
United States of America and acting Pro Se on this 12th day of
September 2020, I caused three copies of the brief of writ of certiorari to be
served by the United States postal service first class mail:
General Electric Company
5 Necco street
Boston, MA 02210 USA
Attn: Principle
USPS 3811#: 7020 0900
0002 0448 0222
United Stated District
Court for the Eastern
District of California
ROBERT E. COYLE
FEDERAL
COURTHOUSE
2500 Tulare Street, Room
1501.Fresno, CA 93721
Attn: Clerk of the Court
and U.S. District Judge
Antfony Ishii. USPS 3811#
:7020 0090 0002 0447 9691

Mitsubishi Power Systems
Americas, 400 Colonial
Center Parkway, Lake Mary,
FL 32746, Attn: Principle
USPS 3811#: 7020 0090 0002
0447 9684
United State Court of Appeals
for the Federal Circuit. 717
MADISON PLACE, N.W.
WASHINGTON D.C. 20439
Attn Clerk of the Court
and all Judges.
USSP3811#:7020 0090 0002
0448 0246

United State Patent and
Trademark office
600 Dulany Street
Alexandria, VA 22314
Attn Director Andrei Iancu
USPS 3811#: 7020 0090 0002
0448 0239
United States International
Trade Commission 500 E
Street, SW
Washington, D.C., 20436
Attn Commissioner
David S. Johanson
USPS 3811#: 7020 0090 0002
0447 9004. Ref 337-TA-641

Thomas Wilkins
121 N. Gateway #44 Ridgecrest
California [93555]
the United States of America
USA 001 661 917 3077

IN THE SUPREME COURT OF THE UNITED STATES

